No. 20-303

 

In Tue
Supreme Court of the United States

UNITED STATES OF AMERICA,

Petitioner,
Vv.

JOSE LUIS VAELLO-MADERO,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals for the First Circuit

BRIEF OF THE GOVERNMENT OF THE
U.S. VIRGIN ISLANDS AS AMICUS CURIAE
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,884 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 7, 2021.

 

Colin Casey Hoga:
Wilson-Epes Pringing Co., Inc.
